January 18, 2005
Report No. 05-003


FDIC’s Use of Consultants




           eral
        EVALUATION REPORT
Federal Deposit Insurance Corporation                                                                 Office of Audits
801 17th Street NW, Washington, DC 20434                                                 Office of Inspector General




DATE:                                  January 18, 2005

MEMORANDUM TO:                         Arleas Upton Kea, Director
                                       Division of Administration



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               FDIC’s Use of Consultants
                                       (Report No. 05-003)

The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall evaluation results. Our evaluation of your response is incorporated into
the body of the report, and your response is included, in its entirety, as an appendix to the report.
Your response adequately addressed the three recommendations to the Division of
Administration. The three recommendations are considered resolved, but they will remain
undispositioned and open for reporting purposes until we determine that the agreed-to corrective
actions have been implemented and are effective.

We appreciate the courtesies extended to the evaluation team.
                                                                                                    Report 05-003
                                                                                                    January 2005



                                           FDIC’s Use of Consultants
                                           Results of Evaluation

                                           From January 1996 through March 2004, the FDIC awarded 213
                                           consulting contracts valued at $123 million, which represents
                                           about 3 percent of the number of contracts awarded and about
                                           5 percent of the value of all FDIC contracts awarded. Our review
                                           of 34 sampled contracts, valued at about $41 million, showed that
                                           contract files did not always contain evidence that contracts were
Background and Purpose of
                                           properly justified, planned, and managed. FDIC contracting
Evaluation
                                           personnel did not always follow policies and procedures for
                                           documenting contracting activity in the contract file and for clearly
Consulting contracts can be a useful       defining work requirements. We determined that the FDIC
and effective tool for the Federal         received a benefit from all but 2 of the consulting contracts
Deposit Insurance Corporation (FDIC),      reviewed. However, because of the lack of documentation in the
but they present their own set of risks.   contract files or because work requirements were vague, only
Consulting contracts are considered        testimonial evidence was available from the program offices for
sensitive in nature and can potentially    13 of our sampled contracts to reach this conclusion.
influence the authority, accountability,   Collectively, our findings illustrate an environment in which
and responsibilities of FDIC officials.    controls over procurement could be circumvented, and the use of
Because consulting contracts often         consultants could be abused.
provide a less rather than more
tangible output, expected work must        Recommendations and Management Response
be clearly defined in order to ensure
that the consultant meets the cost,        Our report contains two recommendations for actions to address
schedule, and deliverable                  deficiencies we noted in the administration of specific contracts,
requirements of the contract. Further,     and one recommendation to generally strengthen the controls
these consulting contracts require         over the FDIC’s use of consultants. In addition, because we have
special management attention to            identified systemic problems with a lack of contract file
ensure that consultants do not perform     documentation in this and previous reports, we are highlighting
functions that should be performed by      this matter for further management attention.
FDIC management; do not result in
conflict of interest situations; and are   The following table summarizes the results of our review.
adequately justified, planned, and
                                                                              Number of    Contract           Amount
managed so that the FDIC benefits                   Description
                                                                              Contracts*   Amount             Expended
from the consulting work.
                                           Contract file did not contain
                                           justification for noncompetitive       10            $915,199        $754,437
Our overall objective was to evaluate      award.
the use of, and benefits derived from,
consulting services at the FDIC.           The extension of the period of
                                           performance may no longer be           1             $170,000         $50,656
Specifically, we determined: (1) the       justified.
extent to which the FDIC utilizes
                                           Contract file did not contain
consulting services; (2) whether           copies of statements of work.
                                                                                  7            $2,440,612      $1,575,377
consulting contracts are effectively
justified, planned, and managed; and       Statements of work were not
                                                                                  9          $12,725,003       $7,708,845
                                           always well-defined.
(3) whether tangible benefits were
achieved from consulting services.         Contracts where oversight
                                           management was weak or no
                                           evidence was available to              6            $2,590,390      $1,730,549
To view the full report, go to             indicate oversight
www.fdicig.gov/2005reports.asp             management.
                                           No evidence that benefits were
                                                                                  2             $200,000         $87,085
                                           received.
                                           Source: OIG Analysis.
                                           *Contracts may be included under more than one finding category.
                                                             TABLE OF CONTENTS



                              TABLE OF CONTENTS

RESULTS IN BRIEF                                                                     1

BACKGROUND                                                                           3

EVALUATION RESULTS                                                                   6

The Extent of Consulting Contracts Used by the FDIC                                  6
Justification, Planning, and Management of Consulting Contracts                      8
Adequacy of Justification for Consulting Contracts                                   8
Recommendation 1                                                                     12
Adequacy of Acquisition Planning and Management for Consulting Contracts             12
Recommendation 2                                                                     18
Benefits Achieved                                                                    18
Enhanced Controls are Warranted                                                      19
Recommendation 3                                                                     19

CORPORATION COMMENTS AND OIG EVALUATION                                              19

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                        21

APPENDIX II: CORPORATION COMMENTS                                                    23

APPENDIX III: MANAGEMENT RESPONSES TO THE                                            26
              RECOMMENDATIONS

TABLES:
Table 1:    Summary of Findings                                                      2
Table 2:    Total Purchase Orders and Consulting Contracts                           6
Table 3:    Number of Consulting Contracts and Amounts Spent by Division or Office   7
Table 4:    APM Guidance for the Use of JNCPs                                        9
Table 5:    JNCP Interim Policy Guidance                                             10
Table 6:    Sampled Contracts with Missing JNCPs                                     11
Table 7:    Sampled Contracts with Missing or Vague SOWs                             14
Table 8:    Modifications to Contracts with Missing or Vague SOWs                    14
Table 9:    Contracts with Specific Oversight Management Deficiencies                15
Table 10:   Unreconciled Difference – Service Costing (Benchmarking) Contract        16
Table 11:   Analysis of Benefits                                                     19

FIGURES:

Figure 1: Categories of Consulting Contracts (As a Percentage of
          Consulting Contract Dollars)                                               6
Figure 2: Average Consulting Contract Amount by Division                             7
                                                            TABLE OF CONTENTS



ACRONYM LIST

APM       Acquisition Policy Manual
ASB       Acquisition Services Branch
CO        Contracting Officer
DIR       Division of Insurance and Research
DIRM      Division of Information Resources Management
DOA       Division of Administration
DOF       Division of Finance
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FAR       Federal Acquisition Regulation
FDIC      Federal Deposit Insurance Corporation
GAO       Government Accountability Office
GSA       General Services Administration
IT        Information Technology
JNCP      Justification for Noncompetitive Procurement
ODEO      Office of Diversity and Economic Opportunity
OERM      Office of Enterprise Risk Management
OM        Oversight Manager
OPA       Office of Public Affairs
PCIE      President’s Council on Integrity and Efficiency
POS       Purchase Order System
SOW       Statement of Work
                                                                         RESULTS IN BRIEF



RESULTS IN BRIEF

Background

Consulting contracts can be a useful and effective tool for the Federal Deposit Insurance
Corporation (FDIC), when expertise in a specialized area is required, but the need is not great
enough to justify hiring personnel to perform the function. Although consulting contracts in
government are generally not high-dollar procurements, they do present their own set of risks to
the FDIC. Consulting contracts require the contractor to provide advice, opinions,
recommendations, ideas, reports, analyses, or other work products and thus have the potential
for influencing the authority, accountability, and responsibilities of FDIC officials. Further, the
Government Accountability Office (GAO) has identified contract and consulting service
payments as one of a number of sensitive payment areas that could present scrutiny and
criticism from the public and media in the event of any impropriety or conflict of interest, real or
perceived, regardless of the cost involved.

As with all contracting engagements, the FDIC is obligated to ensure that consultants are
subject to fair and open competition and that decisions to noncompetitively award consulting
contracts receive appropriate justification and authorization. In addition, because consulting
contracts often provide a less rather than more tangible output, expected work must be clearly
defined in order to ensure that the consultant meets the cost, schedule, and deliverable
requirements of the contract. For these reasons, consulting contracts require special
management attention to ensure that consultants are not performing functions that should be
performed by FDIC management; do not result in conflict of interest situations; and are
adequately justified, planned, and managed so that the FDIC benefits from the consulting work.
We performed this evaluation as part of our continuing effort to provide oversight in areas that
present risk to the FDIC.

Objective

Our overall objective was to evaluate the use of, and benefits derived from, consulting services
at the FDIC. Specifically, we determined:
        • the extent to which the FDIC utilizes consulting services;
        • whether consulting contracts are effectively justified, planned, and managed; and
        • whether benefits were achieved from consulting services.


Evaluation Results

From January 1996 through March 2004, the FDIC awarded 213 consulting contracts valued at
$123 million, which represents about 3 percent of the number of contracts awarded and about
5 percent of the value of all FDIC contracts awarded. Our review of 34 sampled contracts,
valued at about $41 million, showed that contract files did not always contain evidence that
contracts were properly justified, planned, and managed. FDIC contracting personnel did not
always follow policies and procedures for documenting contracting activity in the contract file
and for clearly defining work requirements. We determined that the FDIC received a benefit
from all but two of the consulting contracts we reviewed. However, because of the lack of
documentation in the contract files or because work requirements were vague, only testimonial
evidence was available from the program offices for 13 of our sampled contracts to reach this
conclusion.
                                                                               RESULTS IN BRIEF



Collectively, our findings illustrate an environment in which controls over procurement could be
circumvented and the use of consultants could be abused. Our report contains two
recommendations for actions to address deficiencies we noted in the administration of specific
contracts, and one recommendation to generally strengthen the controls over the FDIC’s use of
consultants. In addition, we have identified systemic problems with a lack of contract file
documentation in this and previous reports. While additional recommendations are not
warranted at this time, we are highlighting this matter for further management attention. Table 1
summarizes the results of our review.

Table 1: Summary of Findings
                                                           NUMBER
                 DESCRIPTION                                 OF          CONTRACT        AMOUNT
                                                         CONTRACTS*       AMOUNT        EXPENDED
Contract file did not contain justification for
noncompetitive award.                                               10      $915,199       $754,437
The extension of the period of performance
may no longer be justified.                                         1       $170,000        $50,656
Contract file did not contain copies of
statements of work.                                                 7      $2,440,612     $1,575,377
Statements of work were not always well-
defined.                                                            9     $12,725,003     $7,708,845
Contracts where oversight management
was weak or no evidence was available to
indicate oversight management.                                      6      $2,590,390     $1,730,549

No evidence that benefits were received.                            2       $200,000        $87,085
Source: OIG Analysis.
* Contracts may be included under more than one finding category.




                                                               2
                                                                                                BACKGROUND



BACKGROUND
Consulting contracts can be a useful and effective tool to help the FDIC accomplish its mission
when expertise in a specialized area is required, but the need is not great enough to justify
hiring to perform the function. For purposes of this evaluation, we focused on consulting
services that provided FDIC management with information necessary to assist in decision-
making and excluded services such as implementation of management’s decisions and training
programs. We used the following definition of consulting services to evaluate the FDIC’s use of
consultants:

    Definition of Consulting Services

    Consulting services are those services designed to support or improve: organizational policy
    development; decision-making; management and administration; program and/or project
    management and administration; research and development activities; and professional
    advice and assistance about management. Outputs from consulting contracts may include
    information, advice, opinions, alternatives, analysis, evaluations, and recommendations.

Source: Adapted from Advisory and Assistance Services, A Practical Reference Guide.1

Although consulting contracts in government are generally not large dollar procurements, they
do present their own set of risks to the FDIC. For example, the Federal Acquisition Regulation
(FAR)2 notes that contracts for services that require the contractor to provide advice, opinion,
recommendations, ideas, reports, analyses, or other work products have the potential for
influencing the authority, accountability, and responsibilities of agency officials. Therefore,
consulting contracts require special management attention to ensure that they do not result in
performance of inherently governmental functions by the consultant and that agency officials
properly exercise their authority.3 While the FDIC is not required to follow the FAR, its
provisions on consultants represent a prudent business practice for governmental entities that
use consultants.

Moreover, the Government Accountability Office (GAO) identified contract and consulting
service payments as one of a number of sensitive payment areas that could present scrutiny
and criticism from the public and media in the event of any impropriety or conflict of interest, real
or perceived, regardless of how much money is involved. For example, an agency’s control
framework should adequately ensure against potential conflict of interest problems such as:

•     direct or noncompetitive award by senior executives;
•     ownership interest in companies that the consultant does business with, as evidenced by
      financial disclosure forms or other substantiated data;
•     senior executive approval of contractor invoices for payment;


1
    The OIG adapted this definition from the publication: Advisory and Assistance Services, A Practical Reference
Guide, issued in December 2000 by the President’s Council on Integrity and Efficiency (PCIE). The PCIE is charged
with conducting interagency and inter-entity audit, inspection, and investigation projects to effectively and efficiently
deal with government-wide issues of fraud, waste and abuse.
2
    Title 48 of the Code of Federal Regulations.
3
   According to the Office of Federal Procurement Policy, services such as those that involve or relate to budget
preparation; reorganization and planning; or analyses, studies, and strategy options to be used by agency personnel
in developing policy, are examples of services that are not considered to be inherently governmental, but which could
fall into that category depending on the way in which the contractor performs the contract or the manner in which the
Government administers contractor performance.




                                                            3
                                                                                               BACKGROUND



•   repeated use of the same contractors;4 and
•   contract(s) that give unfair competitive advantage over competing contractors, unless every
    effort is first taken to mitigate such conflict or advantage.

As with all contracting engagements, the FDIC is obligated to ensure that consultants are
subject to fair and open competition and decisions to noncompetitively award consulting
contracts receive appropriate justification and authorization. Further, because many consulting
contracts are advisory in nature, the FDIC needs to ensure that these contracts clearly define
the work requirements and measurable expectations for the contractor’s satisfactory
performance.

The Federal Deposit Insurance Act empowers the FDIC to enter into contracts which would
include using private sector firms to provide goods or services. This Act also provides that the
FDIC may establish policies and procedures to administer the powers granted to it, including the
power to enter into contracts. The authority to establish policies and procedures for the
contracting program has been re-delegated by the Board of Directors to the Director, Division of
Administration (DOA). The DOA’s Acquisition Services Branch (ASB) is responsible for
developing contracting policies and procedures, and communicating and implementing those
policies and procedures throughout the FDIC. DOA’s primary vehicle for fulfilling that
responsibility is the Acquisition Policy Manual (APM). The APM establishes policies and
procedures and uniform standards for contracting for goods or services at the best value for the
FDIC and was revised in May 2004.

The FDIC’s contracting program employs a team approach for contract administration. The
contracting officer (CO) is responsible for contract administration, which includes oversight
management. Overseeing the technical performance requirements of the contract is primarily
the responsibility of the oversight manager (OM) assigned by the program office. The CO and
OM jointly perform contract administration.5 The contract team is empowered to make decisions
within their area of responsibility, and exercise personal initiative and sound business judgment
in providing goods or services at the "best value" to meet a program office's needs.

The APM does not distinguish between the policies and procedures for consulting service
contracts and non-consulting service contracts. All contracts go through similar processes, but
different parts of the process receive varying degrees of emphasis depending on contract
complexity and price. Contracts with estimated expenditures less than $100,000 that are
classified by the CO as having a non-complex nature (i.e., a single deliverable, short period of
performance) follow a more simplified procurement process in which contracting procedures
and documents are abbreviated. In contrast, contracts for the acquisition of complex goods or
services, or goods or services with a total estimated dollar amount of $100,000 or greater, follow
the FDIC’s formal procurement process, as defined in the APM. Enhanced controls are built
into the formal procurement process to ensure fair competition and evaluation of offeror
proposals and a higher level of oversight.

ASB has also issued interim policy guidance6 that requires written acquisition plans for all
procurements $100,000 or greater. The acquisition plan: (1) identifies all technical, contracting,
fiscal, and business management factors that govern the particular acquisition; (2) provides an
4
    GAO/AFMD-8.1.2, Guide for Evaluation and Testing Controls Over Sensitive Payments, dated May 1993.
5
  Other organizations, including the Legal Division; the Office of Diversity and Economic Opportunity; the Security
Management Section, DOA; and the Accounts Payable Processing Unit, Division of Finance; also play a role in
contract administration.
6
  Interim Acquisition Policy #2004-9, Implementing Acquisition Planning, dated August 31, 2004.




                                                           4
                                                                               BACKGROUND



overall strategy for accomplishing and managing an acquisition; and (3) drives the business
decisions to best support fulfilling the customer’s requirement. The level of detail and formality
for the acquisition plan depends on the dollar threshold and complexity of the acquisition. ASB
provided a streamlined template for all procurements from $100,000 to $1,000,000, and a more
detailed template for procurements greater than $1,000,000. The inset below shows acquisition
plan approval levels:

          APPROVING OFFICIAL(S)                           DELEGATED AUTHORITY

  Contracting Officer, ASB                    $1,000,000 and less

  Assistant Director, ASB                     Greater than $1,000,000 and less than $5,000,000

 Associate Director, ASB                        $5,000,000 and above
Source: Interim Acquisition Policy #2004-9, dated August 31, 2004.




                                                 5
                                                                              EVALUATION RESULTS



EVALUATION RESULTS

The Extent of Consulting Contracts Used by the FDIC

From January 1996 through March 2004, the FDIC awarded 213 consulting service contracts
valued at $123 million, which represents 5 percent of the value of all FDIC contracts. Table 2
presents a summary of total contracts awarded and those that we determined were consulting
contracts.

Table 2: Total Purchase Orders and Consulting Contracts
                                                                       TOTAL PURCHASE ORDER BASE
                UNIVERSE                      NUMBER OF                           AMOUNT
                                              CONTRACTS                        (IN MILLIONS)
                         a
 Total Purchase Orders                            7,243                               $2,640

 Consulting Service Contracts b                    213                                 $123

  Percent of Total                                    3%                                 5%
Source: OIG Analysis of the FDIC Contracting Activity.
a
  Per the FDIC Purchase Order System (POS). Data represents the universe of active purchase orders (those
contracts that have not been purged from the system due to inactivity for more than 2 years) from January 1, 1996
through March 22, 2004. POS is a sub-module of the FDIC’s Financial Information Management System.
b
  Data also includes 13 credit card transactions totaling $40,428.

The FDIC generally used consulting service contracts for the purposes as shown in Figure 1.
We determined that the FDIC used consulting services to provide special knowledge and skills
that were not otherwise available within the FDIC, and provided temporary or intermittent
services consistent with justified uses of consulting contracts in government. Slightly more than
half of the total consulting contract dollars were used for financial advisory and asset disposition
services. Examples of general advisory services included electronic banking research, diversity
consulting, and a disbursement advisory contract.

Figure 1: Categories of Consulting Contracts (As a Percentage of Consulting Contract Dollars)

                Categories of FDIC's Uses For Consulting Service Contracts

                                       1%                                        Financial Advisory/Sales - 51%
                             3%   2%
                      3%
                 5%                                                              General Advisory - 29%

           6%                                                                    Research/Special Studies - 6%

                                                                    51%          Personnel Consulting - 5%

                                                                                 Process Improvement - 3%

                                                                                 Survey Services - 3%

                                                                                 Program Assessment - 2%
             29%
                                                                                 Other - 1%




Source: OIG Analysis of Sampled Contracts.




                                                          6
                                                                                EVALUATION RESULTS



FDIC Division/Office Use of Consulting Contracts

As Table 3 shows, of the 213 consulting service contracts identified, DRR used $44 million for
financial advisory services and data analysis of financial institutions that were in danger of
failing, and those that had failed and were going through the resolution process. DIRM used
almost $16 million for information technology research and special studies.

Table 3: Number of Consulting Contracts and Amounts Spent by Division or Office
                                                  NUMBER OF
FDIC DIVISION OR OFFICEa                         CONSULTING         AMOUNTS EXPENDED
                                                 CONTRACTS         THROUGH MARCH 2004
Division of Resolutions and Receiverships (DRR)                                  36                     $44,292,619b
Division of Information Resources Management (DIRM)                              78                      $15,619,533
Division of Administration (DOA)                                                 42                        $4,642,069
Division of Supervision and Consumer Protection (DSC)                             7                         3,155,088
Division of Insurance and Research (DIR)                                         29                        $2,650,615
Division of Finance (DOF)                                                        15                        $1,017,413
Office of Public Affairs (OPA)                                                    1                          $706,198
Office of Diversity and Economic Opportunity (ODEO)                               3                          $263,646
Office of Enterprise Risk Management (OERM)                                       2                           $92,900
      c
Total                                                                          213                       $72,440,081
Source: OIG Analysis of FDIC Contract Activity.
a
   During our review, various FDIC reorganizations resulted in name changes for the program offices. This table
reflects the current name, and may include contracts that were awarded by the predecessor program office.
b
  Includes payments for non-consulting services, such as training and asset disposition. Contracts were not always
structured to identify consulting versus non-consulting services. Therefore, the entire contract amount is presented.
c
  The OIG also used consulting contracts. However, to maintain independence, we did not audit our own contracts.

Average Contract Cost

Figure 2 shows the average cost of consulting contracts by FDIC program office. As the figure
indicates, consulting contract values average over $100,000, which would generally require the
use of the FDIC’s formal procurement process, as required by the APM.

Figure 2: Average Consulting Contract Amount by Division

                                Average Consulting Contract Amount

   DRR                                                                                                  $2,172,697
  OPA                                        $757,179

   DSC                                  $590,596
  DIRM                       $318,455
  DOA                      $197,180
   DOF               $172,500
 ODEO              $133,897
    DIR           $131,451
 OERM           $130,497


Source: OIG Analysis of FDIC Contracting Activity.




                                                          7
                                                                    EVALUATION RESULTS



Repeated Use of Contractors

We analyzed the universe of consulting service contracts to determine the extent to which the
FDIC used the same consulting contractors and to identify potential conflicts of interest in
repeated use of the same contractors. We found no distinct patterns of repeated use of the
same consulting contractors. The FDIC used 130 different vendors for the 213 consulting
contracts in the universe. Of those 130 vendors, only 32 vendors had been used more than
once.


Justification, Planning, and Management of Consulting Contracts

The official contract files did not always contain evidence that contracts were properly justified,
planned, or managed for a sample of consulting contracts that we reviewed. Our sample
consisted of 34 consulting contracts totaling $40,689,577, or 33 percent of the value of all
identified consulting service contracts in our universe. The results of our review follow.


Adequacy of Justification for Consulting Contracts

The FDIC did not always adequately justify its use of noncompetitive procurement methods to
obtain consultants. Of the 34 sampled contracts, 17 were noncompetitively awarded. Of the 17
noncompetitively awarded contracts, we found that justifications were not prepared and/or
documented in the official contract file for 10 contracts, as required by the APM. Additionally,
for one contract, we concluded that the continued extension of the period of performance may
no longer be justified. Contracting and program officials did not always follow established
policies and procedures by maintaining appropriate documentation in the file to support
noncompetitive procurements. As a result, DOA has a reduced level of assurance that the
consulting contracts were subject to fair and open competition and decisions to
noncompetitively award contracts were appropriately justified and authorized.

During the acquisition planning process, many decisions are made that are critical to the
successful outcome of the contract. The FDIC’s divisions and offices (program offices) are
responsible for identifying requirements, establishing a schedule, obtaining funding, and
developing an overall approach to the procurement action. In conjunction with the program
office, the CO selects the most suitable contract type and the best pricing arrangements to
satisfy the requirement and create the best value solution for the FDIC. Also, during acquisition
planning, the program office prepares a Requirements Package and submits it to ASB for
contract initiation. The CO is required to review the Requirements Package for completeness
and clarity. The Requirements Package is to be retained in the official contract file by ASB and
includes, among other key documents:

•   a complete Procurement Requisition form with appropriate expenditure authority and budget
    approval, and cost estimate;
•   a complete SOW, including the period of performance (with options);
•   the minimum qualifications a firm must have to be considered for award;
•   documentation of market research if conducted; and
•   a Justification for Noncompetitive Procurement memorandum (JNCP), if applicable.




                                                 8
                                                                                EVALUATION RESULTS



According to the APM, although it is the FDIC’s policy to procure goods or services through
competition, instances arise when a noncompetitive procurement7 is justified. In these
instances, and when the value of the noncompetitive procurement is greater than $5,000, the
program office must provide a JNCP. Before preparing the JNCP, the program office, with the
CO, should conduct market research8 in order to identify possible sources for the goods or
services required. Table 4 shows APM guidance for preparing JNCPs.

Table 4: APM Guidance for the Use of JNCPs
    JNCPs Are Authorized When:

        •   The need for the goods or services is of such an unusual and compelling urgency that delay would
            adversely affect the Corporation.
        •   After adequate investigation, only one firm is identified that can meet the specific needs, (e.g., highly
            specialized services demanding the expertise of an individual or firm with unusual capabilities).
        •   There is only one firm that provides the required goods or services that meet specific FDIC requirements.
        •   An existing contractor offers the benefits of historical expertise or systems compatibility, which other
            contractors could not provide as cost-effectively or as timely.

    JNCPs Must Include:
        •   a description of the goods or services required to meet the FDIC’s needs (including estimated value);
        •   rationale for the use of noncompetitive procurement;
        •   demonstration that the proposed contractor meets the FDIC’s needs;
        •   any patent rights, copyrights, or other proprietary information, which may preclude a competitive
            procurement;
        •   results of market research; and
        •   documentation that the anticipated price to the FDIC will be fair and reasonable.

    JNCP Expenditure Delegations of Authority:

        Level of Authority                                                 Dollar Limits
        Division Directors/ Office Directors/Inspector General             $5,000 up to $50,000
        Chief Operating Officer and Chief Financial Officer jointly        Up to $250,000
        Chairperson                                                        Up to $250,000
        Board of Directors                                                 Over $250,000

Source: APM.

At the time of our review, all requests for noncompetitive contracts required approval prior to
soliciting the selected offeror. According to the APM, the CO would send the request to the
Competition Advocate Program for review.9 The CO could reject a request for noncompetitive
approval if the CO believed that a competitive procurement could be awarded within the
required time frame.

In December 2004, the FDIC Board of Directors rescinded expenditure authority delegations for
competitive and non-competitive contracting actions including those delegations listed in



7
  Noncompetitive contracts are those where only one source is solicited, not requiring competition to make an award
or modification.
8
  Market research is obtaining general knowledge about the availability and types of goods or services for future
acquisitions and identifying firms offering goods or services that are available in the marketplace. Market research is
required to substantiate justifications for noncompetitive procurement.
9
  The Competition Advocate Program was established to monitor noncompetitive awards on a corporate-wide basis in
relation to overall competitive awards. According to ASB officials, the Competition Advocate Program was not in
place at the time of our review.




                                                              9
                                                                            EVALUATION RESULTS



Table 4. In response, ASB issued interim policy guidance10 establishing delegations of authority
for non-competitive contracting actions, as shown in Table 5.

Table 5: JNCP Interim Policy Guidance

       ASB                    Program Office
 Approving Official          Approving Official                    JNCP Approval Authority


 Contracting Officer   Project Manager                    Greater than $5,000     Less than $100,000

 Assistant Director    Branch Chief/Assistant Director    Greater than $100,000   Less than $1,000,000

 Associate Director    Division Director                  $1,000,000 and above
Source: ASB.

An ASB representative indicated that this interim policy was intended to enhance the controls
over the process for approving JNCPs by requiring thresholds for approval within ASB and the
program office.


Justifications for Noncompetitive Procurements

Our review of 34 sampled contracts showed that 17 contracts were awarded using the
noncompetitive procurement process. However, for 10 of the 17 noncompetitively awarded
contracts, there were no required JNCPs in the official contract file, and we could not obtain
copies of the JNCPs from the program office. Although the APM requires that JNCPs be
approved and documented in the official contract file for all contracts over $5,000, the APM
procedures were not followed in all cases. Without evidence of an approved JNCP, there is
reduced assurance that the best possible sources for the services were procured at the most
reasonable prices, and there is an increased risk of potential conflict of interest problems.
Table 6 shows the summary of contracts without JNCPs.




10
  Interim Acquisition Policy #2004-13, entitled, Non-Competitive Procedures, Addendum to Acquisition Policy
Manual (Revision 3) Chapter 2.J., “Justification for Non-Competitive Procurement (JNCP)” dated December 8, 2004.




                                                         10
                                                                            EVALUATION RESULTS


Table 6: Sampled Contracts with Missing JNCPs

     CONTRACT DESCRIPTION                       CONTRACT AMOUNT                     AMOUNT EXPENDED

 Survey                                                               $ 6,545                       $ 6,545
 Business Continuity Services                                          279,950                       279,950
 Facilitation Services                                                  13,000                        11,567
 Facilitation Services                                                  13,800                         8,406
 Survey                                                                100,000                        99,910
 Business Continuity Services                                           81,840                        40,920
 IT Special Studies                                                    100,000                        35,295
 IT Special Studies                                                    100,000                        51,780
 IT Program Assessment                                                 103,692                       103,692
 IT Special Studies                                                    116,372                       116,372
 Total – 10 contracts                                                 $915,199                      $754,437
Source: OIG Analysis of Sampled Contracts.

DOA issued interim policy guidance in August 2004 that requires acquisition plans for all
procurements and written acquisition plans for procurements $100,000 or greater. The
acquisition plan must include, among other key documents, the approved JNCP (when
applicable) and must define the basis on which the source selection will be made. As discussed
earlier, the CO approves acquisition plans for procurements $1,000,000 or less.


Contract Extension May No Longer Be Justified

The FDIC’s contract for its diversity advisor was modified in March 2004, to extend the period of
performance through March 2005. However, the diversity advisor has been unable to perform
any coaching or mentoring services under the contract since December 2003 due to an
extended illness. According to the Director of the FDIC’s diversity program, it is in the best
interest of the FDIC to continue the contract with this diversity advisor. However, in the event
the diversity advisor can no longer perform under the contract, then it would be appropriate to
terminate the contract and reevaluate the need for another diversity advisor.

To support the FDIC’s diversity program, in May 1999, the ODEO requested the services of a
diversity advisor for 6 months. Required services were broadly defined to include providing
input on diversity initiatives and conducting research to provide data regarding the achievement
of a diverse workforce. The contract was noncompetitively awarded and according to the
JNCP, the advisor was selected based on a review of market information of leading diversity
advisors.11

Our analysis of the currently active ODEO contract showed that the diversity advisor held
3 group meetings and 48 individual meetings with a total of 18 FDIC executives from April 2002
through December 2003. However, as of October 2004, the diversity advisor had not met with
any executives in 2004 and no further action has been taken or payments made on this
contract.

11
    The initial contract period was 6 months; however, the period of performance was extended through March 2002.
In April 2002, ODEO awarded a new noncompetitive contract for coaching and mentoring services through March
2004 for $170,000. In March 2004, ODEO modified the contract to extend the period of performance through
March 31, 2005. A total of $50,656 had been spent on this contract as of March 2004.




                                                       11
                                                                  EVALUATION RESULTS




We determined that the market for diversity consultants includes similar services available at
hourly rates substantially lower than the hourly and/or daily rate charged by the FDIC’s current
diversity advisor. Further, there may be merit associated with awarding a contract to a new
diversity advisor, such as adding a new perspective to the FDIC’s diversity program, and
providing an opportunity to achieve cost savings. However, the Director, ODEO, who is
responsible for the FDIC’s diversity program, feels strongly that this advisor’s knowledge of the
Corporation and the relationships that he has developed with the Corporation’s executives
whom he has coached and mentored over the years, justifies the continued use of this advisor.
However, the Director, ODEO, did acknowledge that if the advisor can no longer continue to
provide his services to the FDIC, then continuation of the contract should be reevaluated.

Recommendation:

(1)    We recommend that the Director, DOA, reevaluate the continuation of the diversity
       consultant contract.


Adequacy of Acquisition Planning and Management for Consulting Contracts

For 18 of the 34 sampled contracts, we verified that work requirements were clearly established
and deliverables or outputs needed from the contract were sufficiently defined. Further, we saw
evidence in program office files and obtained testimonial evidence from oversight managers,
who have the responsibility to ensure that the contract’s technical performance requirements
are met, that the FDIC received the required services on schedule at the requisite quality and
price specified. We concluded that these 18 contracts were adequately planned and managed.
However, for the remaining 16 contracts in our sample, the SOWs were either not prepared,
were missing from the official contract file, or contained vague requirements. We also identified
deficiencies in oversight management for 6 of those 16 contracts. As a result, we could not
always determine whether the FDIC had clearly defined the work requirements and
communicated them to the contractor, or whether the FDIC received what it needed when it was
needed.

Acquisition planning and contract management is essential for ensuring that the FDIC’s needs
are met in the most efficient, effective, economical, and timely manner. Effective acquisition
planning and management includes ensuring that requirements are clearly defined and properly
funded and that adequate competition is achieved. Further, effective acquisition planning and
management ensures that the contractor delivers the required goods or performs the work
according to the delivery schedule and prices stated in the contract. If the contract has not been
adequately planned, it may be difficult for the oversight team to obtain good results. Because
the nature of consulting contracts is generally to provide “brain power,” as opposed to a more
tangible output, clearly defining the work requirements becomes even more important so that
the contractor’s performance can be measured.

At the FDIC, all contract actions require a clear SOW. The SOW is the portion of a contract that
describes the actual work to be done by the contractor and is the key to successful oversight




                                                12
                                                                               EVALUATION RESULTS



management. SOWs are developed by the program office during the acquisition planning
phase. The APM provides the following guidelines for developing the SOW:

   FDIC’s Guidelines for Developing a SOW

   A thorough understanding of the required goods or services and expected results is critical for a
   well-developed SOW. Items to be considered and conveyed through the SOW include:
    a. nature of the services,
    b. qualifications necessary to perform the work,
    c. deliverables and the scheduled milestones for their delivery, and
    d. standards by which the contractor's performance will be measured.

Source: APM.

The FDIC does not require a format for the SOW content. However, the APM states that SOWs
should be comprehensive and include clearly defined work requirements that address all the
elements necessary for successful performance by the contractor. We consider the SOW to be
a key control over the FDIC’s procurement process. If the contract does not specify the FDIC’s
needs, there is an inherent risk that those needs may not be met by the contractor.

  Planning Problem Areas

  The following problem areas generally are the results of poor planning, inadequate contractor selection
  procedures, and not fully understanding and enforcing the contract terms:
  •   less competition;
  •   increased prices;
  •   use of an hourly rate when a more economical total contract price would have been appropriate;
  •   selection of the wrong method, or less economical contract type;
  •   lack of creditable contractor staff and creditable findings or statements from the contractor;
  •   lack of confidence in the contractors’ staff;
  •   contractor submissions of frequent requests for cost increases; and
  •   contractor failure to meet time frames.

Source: PCIE, Advisory and Assistance Services, A Practical Guide.



Acquisition Planning

The APM establishes policy and procedures for the FDIC’s acquisition planning process and
requires documentation of this process in the contract file. We found that the APM was not
always followed. DOA contracting officials stated that with the newly implemented changes to
the APM, and through issuance of interim policy guidance, they see evidence of improvements
in the documentation for newly awarded contracts. Nevertheless, because the official contract
file lacked documentation, and/or the SOW contained vaguely described work requirements, we
could not always determine the adequacy or appropriateness of the planning for these
contracts. Table 7 shows the summary of contracts without documented or clearly defined
SOWs.




                                                         13
                                                                                EVALUATION RESULTS


Table 7: Sampled Contracts with Missing or Vague SOWs

                                        CONTRACT DESCRIPTION                PURCHASE                    AMOUNT
                                                                          ORDER AMOUNT                 EXPENDED
Missing SOWs:                         Facilitation Services                    $  13,000                 $   11,567
                                      Facilitation Services                    $  13,800                 $    8,406
                                      Business Continuity Services             $  81,840                 $   40,920
                                      Information Technology (IT)              $ 100,000                 $   35,295
                                      Special Studies
                                      IT Special Studies                         $ 100,000               $    51,780
                                      IT Special Studies                         $ 116,372               $ 116,372
                                      Service Costing (Benchmarking)             $ 2,015,600             $ 1,311,037
                                      Subtotal - 7                               $ 2,440,612             $ 1,575,377
Vague SOWs:                           Business Continuity Services               $ 279,950               $ 279,950
                                      Financial Advisory Services                $    327,000               $    317,144
                                      IT Special Studies                         $    200,000               $    115,831
                                      Financial Advisory Services                $ 200,000               $ 200,000
                                      E-banking Advisory Services                $10,987,553             $ 6,311,733
                                      Diversity Consulting                       $ 170,000               $    50,656
                                      Diversity Consulting                       $ 222,500               $ 212,990
                                      Diversity Consulting                       $     50,000               $     37,154
                                      Survey Services                                 288,000               $    183,387
                                      Subtotal - 9                               $12,725,003            $       7,708,845


                                      Grand Total - 16                           $15,165,615             $ 9,284,222

Percent of Sample                                                                         37%                       38%
Source: OIG Analysis of Sampled Contracts.

Of these 16 contracts, further analysis showed that modifications to increase contract price were
made to 7 contracts as shown in Table 8.

Table 8: Modifications to Contracts with Missing or Vague SOWs

CONTRACT DESCRIPTION                         AMOUNT OF INCREASE                      PERCENT OF ORIGINAL
                                                                                       CONTRACT TOTAL
Business Continuity Services                             $230,000                           460%
Diversity Consulting                                     $137,500                               162%
Financial Advisory Services                              $177,000                               118%
IT Special Studies                                       $ 50,000                               100%
IT Special Studies                                       $ 30,000                               43%
                                 12
Service-Costing (Benchmarking)                           $982,000                               95%
Survey Services                                          $209,956                               269%
AVERAGE                                                  $259,494                               178%
Source: OIG Analysis of Sampled Contracts.


12
   We were unable to obtain copies of all of the task orders issued for the service costing (benchmarking) contract
and thus we could not reconcile all task orders to the total contract amount per the POS. Therefore, we could not
identify all work requirements, including the purpose of all modifications made to this contract. However, the
difference between the original contract amount and the total amount as reported by POS (March 2004) was
$982,000 or a 95-percent increase from the original contract amount.




                                                             14
                                                                             EVALUATION RESULTS



About $9 million, or over one-third of the expended costs of the sampled contracts, were not
supported by clear SOWs. Although the APM requires the CO to review the Requirements
Package for completeness or clarity, the CO reviews did not always result in clear, well-defined
SOWs. As a result, the FDIC did not always communicate a thorough understanding of the
required goods or services and expected results to consultants. We were unable to confirm
whether the lack of clear SOWs directly contributed to the need for contract modifications.
However, we verified that for the 7 contracts, modifications were made that, on average, almost
doubled the original contract prices.

The OIG recently issued its report entitled, Acquisition Planning and Execution Strategy,13 in
which recommendations were made to improve the acquisition planning process. These
contract awards were made prior to the issuance of the revised APM as well as the subsequent
interim policy guidance, and efforts are underway to improve the FDIC’s acquisition planning
process. Therefore, we are making no further recommendations at this time.

Oversight Management

As discussed earlier, it is difficult for the oversight manager to obtain good results from a
contract that was inadequately planned. Effective oversight management involves overseeing
the technical performance requirements of the contract and is primarily the responsibility of the
program office. Although it was difficult to determine the adequacy of oversight management for
all 16 contracts listed in Table 7, we concluded that 6 contracts had specific deficiencies, as
summarized in Table 9.

Table 9: Contracts with Specific Oversight Management Deficiencies

       CONTRACT                                 REASON                               CONTRACT       AMOUNT
      DESCRIPTION                                                                     AMOUNT       EXPENDED

 Service Costing –       Unable to reconcile total contract amount per the FDIC’s     $2,015,600    $1,311,037
 (Benchmarking)          purchase order system to task orders because of a lack of
                         documentation.
                         Contract price increased and the period of performance
 Business Continuity     was extended but the scope of work did not change from        $279,950      $279,950
 Services                the original SOW.

 Business Continuity     Did not ensure all work requirements were completed and        $81,840       $40,920
 Services                deliverables were received.

                         Unable to determine the contract requirements (no SOW),
 IT Special Services     the quality of oversight management, or whether the FDIC      $100,000       $51,780
                         received what it expected from the contractor.
                         Unable to determine the contract requirements (no SOW),
 IT Special Services     the quality of oversight management, or whether the FDIC      $100,000       $35,295
                         received what it expected from the contractor.

 Facilitation Services   Incorrect GSA hourly rate was authorized.                      $13,000       $11,567

                         Total Findings – 6 contracts                                 $2,590,390    $1,730,549

                        Percent of Sampled Contract Dollars                                  6%            7%
Source: OIG Analysis of Sampled Contracts.



13
     Report Number 04-043, dated September 29, 2004.




                                                        15
                                                                        EVALUATION RESULTS



We discuss these six contracts more fully below.

Service Costing (Benchmarking) Contract: The service costing (benchmarking) contract is
an active contract with important work yet to be completed to assist the FDIC in implementing its
service costing methodology. Specific work is assigned to the consultant through the use of
individual task orders. However, the total contract price, according to the executed copies of the
task orders found in the official contract file as well as in the OM’s contract file, is not the same
as the total contract price reported in the FDIC’s purchase order system (POS). In fact, the
dollar total of the task orders found in the files exceeds the amount reported in the POS by
$384,620, which raises concern that the contract price may have exceeded the authorized
expenditure authority level for this contract. However, due to the lack of documentation, we
could not confirm that this was the case. Table 10 shows the unreconciled difference for the
contract.

Table 10: Unreconciled Difference – Service Costing (Benchmarking) Contract

                                                                           PER         UNRECONCILED
               PER CONTRACT FILE DOCUMENTATION                             POS         DIFFERENCE

   Task Order (TO)       Contract
       Number            Amount                  Explanation
1                          $233,200
2                               $-0-    Extends period of performance
3                          $305,400
Modification 1 to TO3
                            $545,000
4                            $45,000
5                           $135,000
6                           $138,800
7                                $-0-   Not found in contract file
8                            $21,500
9                            $92,830
Modification 1 to TO9
                              $2,390
10                          $590,600
Modification 1 to TO10           $-0-   Extends period of performance
Modification 2 to TO10      $290,500    Extends period of performance
Modification 3 to TO10           $-0-   Not found in contract file
Modification 4 to TO10           $-0-   Extends period of performance
11                               $-0-   Not found in contract file
Total                    $2,400,220                                       $2,015,600        $384,620
Source: OIG Analysis.

As shown in the table, two task orders (7 and 11) and one modification (modification 3 to task
order 10) were missing from the contract file. The CO or OM could not provide us with the
required documentation. As a result, we could not verify the total contract price, or determine
the contract terms, including the work requirements and/or specified price for the missing task
orders and modification. One CO explained that the poor condition of the official contract file
was caused by changes in the CO a number of times due to reorganizations and new
assignments of responsibility within ASB. Although ASB has been aware of the condition of this
contract file since February 2004, the total contract price has not yet been reconciled and
complete documentation is not maintained in the file. We concluded that more attention needs
to be given to the service costing (benchmarking) contract, and we are recommending that ASB
conduct a complete contract review to ensure the contract file contains complete documentation




                                                   16
                                                                   EVALUATION RESULTS



and the total contract price is accurately reflected in the POS, and the contractor has met the
cost, schedule, and deliverable requirements.

Business Continuity Contracts: DOA hired two different consultants, at varying times, to
provide business continuity services for the FDIC. We determined that these contracts were not
well-managed. The first contract was initially awarded for $49,950 with the period of
performance of April 2001 through July 2001. The purpose of this contract was to validate the
content and effectiveness of the FDIC’s business continuity plan. The contract was modified
several times to increase the contract price to 460 percent of the initial contract amount (as
shown in Table 8) and to extend the period of performance through December 2001.
According to a program official familiar with this contract, the scope of services did not change
from the initial contract, but more time and money was needed for the contractor to complete
the work. As discussed above under the section entitled, Acquisition Planning, the SOW did
not require specific deliverables, milestone schedules, or delivery due dates. In this case, the
oversight manager did not hold the contractor accountable for completing the required services
within the period of performance and the contract terms.

The FDIC hired a second consultant to provide business continuity plan assessment services in
September 2003. We could not find a SOW in the official contract file that had been prepared
by the FDIC. Instead, we found that the SOW was prepared by the consultant. We did not
always see evidence that the FDIC received the expected level of effort as indicated by the
consultant’s proposal of work. For example, the consultant’s proposal indicated that the
following work would be completed:

       “...shall review the FDIC’s Division of Information Resource Management (DIRM)
       documentation that summarizes the 38 FDIC identified mission-critical application
       systems and services, their priorities, impact, linkage, and integration with the FDIC
       Business Continuity Plan will also be provided and reviewed.”

We did not see any evidence in the contract file or results from this review in the consultant’s
assessment report. We concluded the oversight manager did not hold the contractor
accountable for the required work under the contract.

Information Technology (IT) Special Studies Contracts: DIRM hires consultants to perform
special studies for IT-related projects. We identified two such contracts, with the same
consultant for back-to-back time periods, where we could not determine the adequacy of
oversight management because of the lack of documentation to support the work that was
requested and received. Each contract was priced at $100,000 for a total of $200,000 and the
amount expended on these contracts totaled $35,295 and $51,780, respectively, for a total of
$87,075.

The official contract file did not contain SOWs for either of these two contracts. Therefore, we
could not identify what services DIRM requested from the consultant. Oversight management
records were not available for our review for either of the contracts. Neither the CO nor the OM
for one of the contracts are currently employed by the FDIC and there were no other DIRM
officials identified as having any knowledge regarding the specifics of that contract. Therefore,
we could not review any records or other indications that deliverables were received or services
were provided by the consultant for that contract.

For the second contract, the OM produced a report, dated January 2002, on the topic of
“Contingency Planning Analysis” but because there was no SOW, we could not verify how or



                                                17
                                                                  EVALUATION RESULTS



when these services were requested, whether this deliverable was a product from this specific
contract, how much these services cost the FDIC, and if there were other services performed
under the contract which helped account for expended funds.

In discussing our specific concerns, a DIRM representative conceded that DIRM should improve
the way it standardizes its process for obtaining and improving the quantity and quality of
requirements content for these kinds of smaller services but with something much less stringent
than full SOWs and full contract packages. We concluded that for both of these contracts,
neither DIRM nor the CO complied with the APM, and thus the controls that are built into the
FDIC’s procurement process were circumvented as a result.

Facilitation Services Contract: We determined that the consultant overcharged the FDIC by
using the incorrect GSA hourly rate for facilitation services. The rate actually paid was $29/hour
higher than stated on the appropriate GSA schedule contract. However, this contract is over
4 years old, the OM no longer works at the FDIC, and the amount of the overcharge would have
cost the FDIC a maximum of approximately $1,400. Therefore, we are not recommending
further action. Nevertheless, the error indicates inadequate management on the part of the
program office responsible for monitoring the expenditure of funds.


Recommendation:

(2)    We recommend that the Director, DOA, require the CO for the service costing
       (benchmarking) contract to complete a full contract review, including a reconciliation of
       the contract price and all individual task orders awarded under this contract to the POS.


Benefits Achieved

We determined that the FDIC derived some benefit from nearly all of the sampled contracts that
we reviewed. We were able to verify the receipt of benefits resulting from the contract for 18 of
the 34 sampled contracts that had clearly defined work requirements. However, for the
remaining 16 contracts where SOWs were missing or contained vague work requirements, only
testimonial evidence provided by the program office was available rather than contract file
documentation to verify that deliverables, or other outputs, resulted in benefits to the FDIC.
Program officials asserted that 13 of the 16 resulted in benefits to the FDIC. For the two IT
special studies contracts and portions of the service costing (benchmarking) contract, file
documentation was not sufficient for us to identify that the consultants delivered the services
that were needed or requested by the FDIC.

As discussed earlier, SOWs are required for all FDIC contracts, and each SOW should be clear,
concise, accurate, complete, and written in a manner that permits the FDIC to measure the
contractor’s achievement of the contract requirements. Therefore, it is important that the FDIC
structures contracts through an adequate planning process, and adequately manages them to
ensure that expected benefits are achieved. Table 11 shows further analysis of the 34 sampled
contracts with contract values and amounts spent of approximately $41 million and $24 million,
respectively.




                                                18
                                                                            EVALUATION RESULTS


Table 11: Analysis of Benefits

 NUMBER OF                          RESULTS OF ANALYSIS                           CONTRACT      AMOUNT
 CONTRACTS                                                                         AMOUNT        SPENT

       18         Benefits independently verified by OIG.                         $25,523,962   $14,956,554

       13        Although there was not a clear SOW in the contract file,
                 testimonial evidence supported the FDIC’s receipt of benefits.   $12,950,015    $7,886,110
                 Because of incomplete documentation in the contract file,
       1         benefits for a portion of the contract were unidentifiable and    $2,015,600    $1,311,037
                 the portion of the contract amount for these unidentifiable
                 benefits is unquantifiable.
       2         Could not determine if benefits were received by the FDIC due
                 to a lack of documentation in the contract file.                   $200,000       $87,085
Source: OIG Analysis of Sampled Contracts.



Enhanced Controls are Warranted

The FDIC APM does not distinguish between the policies and procedures in place over
consulting and non-consulting service contracts. As discussed earlier, consulting contracts
present risks to the FDIC because they may closely relate to functions that should be performed
by FDIC management and because of the potential for conflict of interest situations. Although
nothing came to our attention that caused us to suspect abuse, consulting contracts are
sensitive in nature and the dollar amount of these contracts can often fall below the dollar
threshold requiring a written acquisition plan. We concluded that management controls could
be strengthened to protect the FDIC from these risks.

Recommendation:

(3)     We recommend that the Director, DOA, revise the APM to raise awareness of the
        risks associated with consulting contracts and enhance controls to ensure that the FDIC
        is protected from the improper use of consultants.


CORPORATION COMMENTS AND OIG EVALUATION
On January 13, 2005, the Director, DOA, provided a written response to the draft report, which
is presented in its entirety in Appendix II of this report. Appendix III presents a summary of the
FDIC’s responses to our recommendations.

DOA partially concurred with Recommendation 1. DOA responded that it had discussed the
diversity consultant contract with ODEO and learned that the diversity advisor planned to return
to the FDIC to perform additional coaching/mentoring services under the contract. DOA
decided that the contract will remain in place through the March 2005 expiration date. If for any
reason the consultant is unable to perform duties required in the contract, DOA will re-open this
condition.

DOA concurred with Recommendation 2. DOA instructed the contracting officer to perform a
full contract review to include a reconciliation of the contract price with all individual task orders
executed under the contract. DOA expects to complete this review by February 28, 2005.




                                                       19
                                                                 EVALUATION RESULTS



DOA partially concurred with Recommendation 3. Although DOA agreed that there are potential
risks with consulting contracts, DOA does not believe that these risks are significantly greater
than other service type contracts to warrant revision to the APM. However, DOA has agreed to
provide training and other formal written reminders to acquisition personnel regarding consulting
service contracts. In addition, ASB reported that it had already begun working with the FDIC
Contract Legal Unit to strengthen conflict of interest provisions associated with consulting
contracts. Completed action is expected by March 31, 2005.

The actions taken and planned by management are responsive to the recommendations. The
recommendations are resolved but will remain undispositioned and open until we have
determined that agreed-to corrective actions have been completed and are effective.




                                               20
                                                                                APPENDIX I



OBJECTIVE, SCOPE, AND METHODOLOGY
Our overall objective was to evaluate the use of, and benefits derived from, consulting services
at the FDIC. In fulfilling the objective, we determined:
        • the extent to which the Corporation utilizes consulting services;
        • whether consulting services contracts are effectively justified, planned, and
           managed; and
        • whether benefits were achieved from consulting services.

To determine the extent to which the Corporation utilizes consulting services, we performed the
following work:

•   Reviewed the DOA Acquisition Policy Manual for policies and procedures that are in place
    to control the contracting activities for the FDIC.
•   Defined the term “consulting contracts” for the purpose of this evaluation, and obtained
    concurrence from ASB officials on the definition used. In developing our definition, we
    considered excerpts from the following sources:
        o Office of Management and Budget, Circular No. A-11.
        o General Services Administration, Federal Supply Schedule 874, Management,
            Organizational, and Business Improvement Services.
        o Government Accountability Office Report No. GAO/NSIAD-00-183R, Selected DOD
            Consulting Services.
        o American Institute of Certified Public Accountants Web site, March 2004.

•   Obtained a universe of contracts from the DOA Purchase Order System (POS) for the
    period January 1, 1996 through March 22, 2004. From the universe, identified those
    contracts that were for consulting services. Verified the reasonable completeness and
    accuracy of this list with the FDIC program office for which the services were procured.
    Selected a judgmental sample of 34 consulting contracts for detailed review. The total
    amount of the contracts equaled $40,689,577. The total amount expended was
    $24,240,776.

To determine whether consulting contracts were effectively justified, planned, and managed, we
reviewed the DOA official contract files, OM files, and any deliverables that were required as
part of the contract to determine the need for the services. We reviewed the SOW to determine
if the required services and expected results were clearly written, and whether the SOW
included the following:
         o nature of the services,
         o qualifications necessary to perform the work,
         o deliverables and the scheduled milestones for their delivery, and
         o standards by which the contractor’s performance would be measured.

•   Interviewed the OM, or if the OM was no longer an FDIC employee, an FDIC official who
    possessed knowledge regarding the benefits that were received as a result of the consulting
    service contract.

•   In specific cases, we reviewed Dunn and Bradstreet records to identify potentially
    inappropriate relationships that may have existed between the FDIC and the vendor. None
    were identified.



                                               21
                                                                                     APPENDIX I



To determine if the FDIC achieved benefits as a result of the contract, we reviewed the contract
deliverables, and interviewed the OM (or designee) about the expectations of the contract, and
how the results derived from the contract were used by the FDIC. In some cases, we were unable
to corroborate testimonial evidence due to a lack of contract file documentation.

Prior Audit Coverage

The OIG has a program of contractor reviews and audits that includes pre-award reviews of the
FDIC’s compliance with its contract evaluation and award process, pre-award reviews of contractor
proposals or internal control systems, contractor billing audits, and contract close-out audits. While
not specifically noted in the resulting reports, we have often observed during these reviews that
contract file documentation needed improvement. In addition, in our previously referenced report
on the FDIC’s acquisition planning and execution strategy (Report No. 04-043, dated
September 29, 2004), we found that documentation dealing with the scope of work to be
performed, deliverables, and other requirements was not always adequate. Finally, in our report
entitled, Records Management and Storage (Report No. 04-045, dated September 30, 2004), we
noted that the FDIC was unable to locate the contract file for the contractor that performs that
function.

We conducted our evaluation from March through September 2004 in accordance with generally
accepted government auditing standards.




                                                 22
Appendix III
     APPENDIX II




24
     APPENDIX II




25
                                                                                                                           APPENDIX III




MANAGEMENT RESPONSES TO THE RECOMMENDATIONS
This table presents the management responses on the recommendations in our report and the status of the recommendations as of
the date of report issuance.

                                                                                                                                        Open
 Rec.                                                                Expected          Monetary   Resolved:a    Dispositioned:b           or
Number         Corrective Action: Taken or Planned/Status          Completion Date     Benefits    Yes or No       Yes or No           Closedc
             DOA discussed the diversity contract with ODEO
      1      management and determined that the diversity
             advisor had recovered from his illness and would       March 31, 2005        $0          Yes             No                Open
             resume services outlined in the contract. The
             contract will remain in place through the March
             2005 expiration date. If for any reason, the
             consultant is unable to perform duties required in
             the contract, DOA will re-open the condition.
             DOA instructed the cognizant contracting officer to
      2      perform a full contract review to include a
             reconciliation of the contract price with all         February 28, 2005      $0          Yes             No                Open
             individual task orders executed under the
             contract.
             DOA will raise awareness of the unique nature of
      3      consulting contracts via training and other formal
             written reminders to acquisition personnel. In
             addition, ASB had already begun to work with the
             FDIC Contract Legal Unit to strengthen conflict of     March 31, 2005        $0          Yes             No                Open
             interest provisions associated with consulting
             contracts.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                   resolved as long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary
benefits achieved through implementation identified. The OIG is responsible for determining whether the documentation provided by management
is adequate to disposition the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.


                                                                           26
